                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Departme nt of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                           Inspection of the
                                  Office of the United States Special
                              Representative for Afghanistan and Pakistan
                                               Report Number ISP-I-11-48, June 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION



This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

        The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

       Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

       Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

        The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                          ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                Table of Contents



Key Judgments                                                       1
Context                                                             2
Executive Direction                                                 3
   S/SRAP Components                                                4
   The S/SRAP Model                                                 6
Policy and Program Implementation                                  11
   Country Directorates Reporting to S/SRAP                        11
   Foreign Assistance                                              17
   Strategic Communication, Public Affairs, and Public Diplomacy   18
   Pakistan and Afghanistan Support Office                         22
Resource Management                                                24
   Human Resources Division                                        26
   Information Services Division                                   28
Management Controls                                                29
   Security Program                                                31
Recommendations                                                    32
Informal Recommendations                                           35
Principal Officials                                                37
Acronyms                                                           38
Appendix I: Summary of Foreign Assistance Funding Allocation       39




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
Key Judgments
          Charged by Secretary Clinton in January 2009 to lead diplomatic and development efforts
          to create “an integrated strategy that works with both Afghanistan and Pakistan as a
          whole, as well as engaging the North Atlantic Treaty Organization and other key friends,
          allies, and those around the world who are interested in supporting these efforts,” the
          Special Representative for Afghanistan and Pakistan (S/SRAP) has built an organization
          that meets the Secretary’s challenge.

          The inclusion of interagency representatives and outside experts is extraordinarily
          successful. S/SRAP’s absorption of two country desks from the Bureau of South and
          Central Asian Affairs (SCA) and its involvement in direction of the missions in
          Afghanistan and Pakistan work less well.

          S/SRAP rightly takes pride in being innovative, entrepreneurial, and fast-moving. Its lack
          of hierarchy, almost unfettered access to the Department’s most senior officials,
          interagency reach, and breadth of knowledge and experience has permitted S/SRAP to
          accomplish more in a shorter time than traditional regional bureaus generally can.

          S/SRAP leaders characterize it as being – for all intents and purposes – a bureau. They
          are right in that, in many respects, it operates like a Department regional bureau.
          However, S/SRAP leaders have largely jettisoned the management functions of a bureau,
          which leaves many important operational activities undone. Much needs to be done for
          S/SRAP to be fully bureau- like.

          Communication and cooperation between S/SRAP and SCA has been adequate, but more
          needs to be done by both organizations to prepare for eventual restoration of the desks
          and many S/SRAP responsibilities to SCA.

          The Department is relying on a blended workforce – a mixture of Foreign Service,
          traditional Civil Service, excepted Civil Service (known as 3161s), contractors,
          Presidential Management fellows, interns, and retired diplomats – to staff both S/SRAP
          and the missions in Afghanistan and Pakistan. Managing this blended workforce presents
          enormous challenges, which are being met to a large degree.

        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 10 and March 18, 2011.
(b) (6)




                                             1
                                SENSITIVE BUT UNCLASSIFIED
Context
        As a candidate, President Obama spoke of the need to get “on to the right battlefield in
Afghanistan and Pakistan.” Three days after taking office, he named Richard Holbrooke as his
Special Representative for Afghanistan and Pakistan, to coordinate across the entire government
the pursuit of the United States’ strategic goal in that region: to disrupt, dismantle, and defeat al-
Qaeda, and prevent it from threatening America and our allies in the future.

        To accomplish all this, the Special Representative was empowered to create an
innovative, entrepreneurial, and fast-moving operation. His bureaucratic heirs speak proudly of
the agility of the S/SRAP and its ability to avoid many of the bureaucratic processes that other
elements of the Department must follow. They cite its direct line to the Secretary, and through
her to the President, as the basis for its extraordinary structure and approach. Four additional
elements are hallmarks of the S/SRAP model:

       1. Liaisons from eight other U.S. Government agencies were detailed to the
          S/SRAP staff, as the core of a “whole of government” approach to policy-
          making and implementation.
       2. World-class experts were brought in to provide first-hand knowledge of the
          region’s politics, economics, and cultures; analyze events; and shape effective
          policies.
       3. Reflecting the broader regional context and the intersection with U.S. relations
          with India and Central Asia, the S/SRAP senior deputy was also “dual- hatted” as
          a deputy assistant secretary in SCA.
       4. The country offices for Afghanistan and Pakistan were detached from SCA to
          create what S/SRAP says is, for all intents and purposes, its own “bureau.”

       In December 2009, the President described the way forward in Afghanistan and
Pakistan:

       a short-term surge in multinational troop levels;
       increased emphasis on training Afghan security forces;
       beginning in July 2011, a transfer of lead security responsibility to Afghans and a start of
       the transition of U.S. combat forces out of Afghanistan;
       a significant increase in civilian experts to accompany a sizable infusion of additional
       civilian assistance; and
       a long-term, strategic relationship with Pakistan, including $1.5 billion annually for the
       next 5 years, to support Pakistan’s development and democracy.

In its initial months in operation, S/SRAP used its unique structure and style to build the
foundation for the latter two objectives.

        The December 2010 Afghanistan-Pakistan Annual Review concluded that the United
States was on track to achieve its goals, that specific components of the strategy for Afghanistan
and Pakistan were working well, and that there were notable operational gains. In a speech to the
Asia Society on February 18, 2011, Secretary Clinton described a strategy with three mutually
                                            2
                               SENSITIVE BUT UNCLASSIFIED
reinforcing tracks, or surges, to further solidify these goals: a military offensive against al-Qaeda
terrorists and Taliban insurgents; a civilian campaign to bolster the governments, economies, and
civil societies of Afghanistan and Pakistan, to undercut the pull of the insurgency; and an
intensified diplomatic push to bring the Afghan conflict to an end and chart a new and more
secure future for the region. S/SRAP has the lead on the latter two surge efforts.

       Taken together with the desks, S/SRAP has 60 direct- hire and 9 contractor employees,
plus 16 employees detailed from other agencies and governments. In collaboration with SCA’s
executive office, it oversees and supports the U.S. missions in Afghanistan and Pakistan, each of
which has thousands of direct- hire and contractor employees and billions of dollars in operating
and assistance resources.

       As the July 2011 date for initiating the withdrawal of U.S. combat troops approaches, the
U.S. presence in Afghanistan is transitioning to a civilian- led effort. The death of the Special
Representative in December 2010 and the appointment (during the OIG inspection) of his
successor also means S/SRAP is in a leadership transition.

        The OIG scheduled this inspection before the death of the Special Representative.
Subsequently, the acting special representative concurred that the inspection would still be
valuable and should proceed. The early phases of this inspection focused on an S/SRAP
organization with transitional leadership and uncertainty among staff about the direction and
structure of S/SRAP going forward. The Secretary’s announcement, and the arrival of the new
Special Representative on February 18, 2011, began to clarify those uncertainties.


Executive Direction
        S/SRAP resembles earlier special representative or special envoy offices in the
Department in some respects, but the interagency and special advisor components are unique.
The separation of the two country desks from SCA and their incorporation into S/SRAP, as well
as S/SRAP’s involvement in direction of the missions in Afghanistan and Pakistan, thereby
creating a virtual regional bureau, is also atypical.

        The S/SRAP that Ambassador Holbrooke created and the special status it enjoyed led to
extraordinary accomplishments in a brief period. One senior Department staffer observed that the
virtue of S/SRAP was “its ability to do in a day what most bureaus can do only in a week.” This
virtue was especially important in the organization’s early months, when senior leadership in
many Washington departments and agencies was in transition, and when the President and the
Secretary insisted on a rapid change of focus and intensification of effort in Afghanistan and
Pakistan. S/SRAP was, as one senior S/SRAP staff member put it, “a breeding ground of
creativity.” Another senior S/SRAP staff member told the OIG team that S/SRAP had met the
Secretary’s stated intent that it should lead diplomatic and development efforts to create “an
integrated strategy that works with both Afghanistan and Pakistan as a whole, as well as
engaging the North Atlantic Treaty Organization and other key friends, allies, and those around
the world who are interested in supporting these efforts.” Based on extensive interviews and
observations, the OIG team believes that claim is correct.

                                           3
                              SENSITIVE BUT UNCLASSIFIED
       Ambassador Holbrooke’s S/SRAP consisted of six components:

       first one – and later a total of three – deputies;
       a close personal staff that supported him;
       a group of special advisors with knowledge of the region, its history, politics, and peoples;
       an interagency group whose agencies had programs or interests in Afghanistan and
       Pakistan;
       a press and public diplomacy group; and
       the Afghanistan and Pakistan desks.

S/SRAP was augmented further by staff from Department bureaus and offices (such as the
Bureau of Legislative Affairs, the Bureau of Intelligence and Research, and multiple offices
within SCA), who operated out of their home bureaus/offices but worked primarily for S/SRAP.
In addition, SCA’s executive office provided management support for the two desks; the
Executive Secretariat Executive Office provided management support for the personal staff,
special advisors, other agency detailees, and media group. This structure, with only slight
modifications, remained in place during the OIG inspection.

Office of the Special Representative for Afghanistan and Pakistan Components

Deputies

        The original terms of reference for S/SRAP called for a single deputy, who would
concurrently serve as a deputy assistant secretary in SCA. Reflecting understanding of the value
of having a deputy familiar with the Department’s current working processes, the terms of
reference called for the deputy to be a Foreign Service officer. In the summer of 2009, the
Special Representative won permission to name a second deputy, who took responsibility for
oversight of foreign assistance and related congressional issues, as well as international
engagement activities. In 2010, the Special Representative elevated the senior Department of
Defense representative to serve as a third deputy overseeing reintegration and strategic
communications.

        When the Foreign Service deputy position became vacant in mid-2010, the Special
Representative selected a seasoned Department Civil Service employee who was returning from
an assignment in Afghanistan. Like his predecessor, this deputy had responsibility for oversight
of the two desks, as well as several special projects.

Personal Staff

        Headed by a chief of staff and including several special assistants, a staff assistant, and an
executive assistant (or office management specialist), this group concentrated on providing for
the Special Representative’s needs. In some respects, the special assistants played the roles of
personal assistants. A special assistant for the senior deputy in S/SRAP played a more traditional
special assistant role, as he read, edited, and prepared materials for the Deputies and Principals
Committee meetings, as well as special correspondence for the Secretary and President, on
behalf of the Special Representative. The personal staff met the Special Representative’s
                                                   4
                                SENSITIVE BUT UNCLASSIFIED
information and institutional needs well; nonetheless, many in the organization would have
preferred a more transparent and traditional front office special staff operation.

       Informal Recommendation 1: The Office of the Special Representative for Afghanistan
       and Pakistan should set up a special assistant and staff aide component to manage the
       flow and quality of the office’s correspondence.

Special Advisors

        Ambassador Holbrooke recruited a handful of advisors with special knowledge of
Afghanistan and Pakistan, as well as nearby countries and specific issues, and used them as
project or team leaders or to serve as his own special links to regional leaders. One early recruit
was a distinguished academic expert on Afghanistan, who took the lead on the sensitive issue of
promoting reconciliation. One advisor established links with nongovernmental organizations,
both international and local, working in the two countries. Another, from the British Foreign and
Commonwealth Office, had extensive knowledge of Pakistan. Some advisors unfamiliar with the
government found it difficult to link their specialized knowledge of the countries to Department
offices and bureaus that have responsibility for programs. In general, however, the OIG team
found that bringing in outside experts helped S/SRAP overcome a major weakness that had
stemmed from the fact that many government officials returned from short tours in Afghanistan
and Pakistan more conversant with interagency and visitor support issues with than the economic
and political cultures of those countries. The special advisors are unquestionably precious human
resources, whom the new Special Representative already values, and the OIG team received
frequent positive comments about their personal openness.

Communications Team

        Although it is focused on the Special Representative, the S/SRAP communications team
has taken on some of the characteristics of a traditional bureau press and public diplomacy
office. The team played a major role in strategic planning for strategic communication and public
diplomacy, including the interagency coordination that is an integral part of that effort. Although
the team reached outside of S/SRAP for press officer assistance, including the clearing of press
statements, it took the lead role in planning and setting up a heavy schedule of media coverage
and availabilities for the Special Representative and other senior U.S. officials.

Interagency Group

         The interagency group consists of representatives (primarily other agency detailees to
S/SRAP on a nonreimbursable basis) from the U.S. Agency for International Development
(USAID), Department of Agriculture, Department of Defense, Joint Chiefs of Staff, Department
of Homeland Security, Department of the Treasury, Department of Justice, and the Federal
Bureau of Investigation. The original S/SRAP mandate called for a representative of the
National Security Council, as well, but no one ever filled this role. Virtually every one of the
representatives arrived at S/SRAP with some degree of expertise in Afghanistan or Pakistan
issues, some of them with direct, in-country experience.


                                           5
                              SENSITIVE BUT UNCLASSIFIED
        These interagency representatives serve as communications links to their home
organizations. They are able to gather information from those organizations urgently and convey
information from the Special Representative to their home agencies. In the early days of
S/SRAP, when time was of the essence and many departments and agencies did not yet have
full-time senior staff in place, some agency officials regarded S/SRAP as overly aggressive in
trying to direct their programs and activities. However, all senior S/SRAP staff felt that
S/SRAP’s nontraditional and innovative approach has been instrumental in moving civilian
experts and assistance rapidly and in building the U.S. relationship with Pakistan.

        Shortly after Ambassador Holbrooke’s death, the Secretary reiterated her commitment to
the S/SRAP interagency model. According to many in S/SRAP, the interagency component
continues to be critical to its work. Some think that a few interagency representatives’ day-to-day
presence might no longer be essential, but those agencies involved directly in the ongoing
civilian and newer push for diplomatic “surges” should continue to be represented. The OIG
team discussed its findings on this subject with the new Special Representative shortly before the
inspection concluded.

       Informal Recommendation 2: The Office of the Special Representative for
       Afghanistan and Pakistan should review its need for the daily presence of interagency
       representatives who are currently in the office and reaffirm with their respective agencies
       the need for the representatives’ presence going forward.

Afghanistan and Pakistan Desks

        From the time of S/SRAP’s creation in early 2009 until fall 2010, the desks were not well
integrated into S/SRAP. Desk officers felt isolated from both their policy leadership and the
broader Department. With the arrival in summer 2010 of the new office directors Ambassador
Holbrooke had selected, the Special Representative made a noticeable and appreciated effort to
overcome the integration problems. However, by the time of Ambassador’s Holbrooke’s death,
this endeavor remained a work- in-progress. The damage done by the partition model (both
internal and vis-à-vis the rest of the Department – see below) has persisted, and attitudes among
some S/SRAP personnel have not fully adjusted. The OIG team discussed with the new Special
Representative the importance of continuing and enhancing these integrative efforts and some
ways he might do so.

       Informal Recommendation 3: The Office of the Special Representative for
       Afghanistan and Pakistan should continue efforts to better integrate the Afghanistan and
       Pakistan desks into the activities of the office.

The Office of the Special Representative for Afghanistan and Pakistan Model

        S/SRAP credits much of its success to being a flat, or nonhierarchical, organization. Even
though the office began with one deputy and expanded to a total of three during 2010, the focus
of information flow was Ambassador Holbrooke. He played the analogous role to a computer’s
central processing unit where virtually all information flowed to, and all instructions flowed
from, the Special Representative. Various elements of S/SRAP – the deputies, special advisors,
media group, and occasionally desk officers – served in partitions that worked on tasks assigned
                                          6
                             SENSITIVE BUT UNCLASSIFIED
by the Special Representative, often with a changing array of S/SRAP and occasionally other
Department elements. These partitioned teams were often very successful. They were
responsible for, just to name a few, an extraordinary civilian surge; developing and kicking off
projects valued at billions of dollars; building the 40-plus country International Contact Group;
helping to win passage, and then begin implementation, of the Kerry-Lugar-Berman legislation,
providing assistance to Pakistan; successful negotiation of the Afghanistan-Pakistan Transit
Trade Agreement; and encouragement of and support for multiple Congressional delegation
visits to Afghanistan and Pakistan.

Communication and Coordination

       Communication across partitions was limited; a daily activity report annotated by the
Special Representative became a singular vehicle for S/SRAP staff to learn what others were
doing. More commonly, people lined up at the Special Representative’s door to receive
assignments or report progress. Several S/SRAP staff reported that they made individual
information gathering forays to discover what was happening, or elbowed their way into
meetings where they thought they might have a role.

        There were some large meetings that featured information exchanges, but by staff request
four staff meetings per week devolved to two, one primarily for immediate S/SRAP members
and a second for S/SRAP and other staff from the Department, including the desks. Weekly
meetings (known as “shuras”) held at the Department, cochaired by the Special Representative
and a senior National Security Council official, and intended to be an opportunity for interagency
and intra-Departmental exchanges, became a forum for generalized information sharing.
Acknowledging the “shura” was too unwieldy for effective decision-making, several Department
and interagency representatives saved significant policy discussions for conversations outside the
“shura” venue. In February 2011, recognizing the enormous commitment of senior officials’ time
to the weekly, 90- minute meetings, the acting S/SRAP announced that the “shura” would shift
from a weekly to a monthly format.

        Even daily appointment schedules for the Special Representative and the deputies were
either unavailable or limited in distribution. Following a leak to a newspaper, the Special
Representative’s daily schedule became a tightly controlled item. Each deputy’s administrative
assistant circulated that deputy’s schedule separately and to distinct distribution lists. There was
no consolidated front office schedule, as is found in all but one of the Department’s regional
bureaus. The partitioning of schedule information further limited communication within the
organization, complicated staff planning, and reinforced a sense of isolation among some staff.

       The effect of S/SRAP’s partitioning was also evident in information sharing internally
and across the Department. S/SRAP did not clear most of its documents prepared for senior
Department officials or the National Security Council. By default, special and staff assistants in
the Department’s senior executive suites served as distributors of some S/SRAP-drafted
documents to relevant bureaus and offices, after the fact. Some S/SRAP staff members were
notorious for seeking information from others in the Department, or even within S/SRAP, and
then not sharing how that information was used – or even checking that the information, as used,
was correct. Given the sense of urgency that suffused S/SRAP’s early operations, as well as the

                                           7
                              SENSITIVE BUT UNCLASSIFIED
sensitivity of some of the issues under its purview, S/SRAP’s approach to information sharing
was extraordinary – but, to a degree, understandable.

       (b) (5)




       The newly appointed Special Representative arrived during the inspection, and the OIG
team discussed internal communications issues and approaches he might consider in addressing
problems the team had identified.

       Informal Recommendation 4: The Office of the Special Representative for
       Afghanistan and Pakistan should address internal communications issues by establishing
       clear guidelines on information sharing, making senior officials’ daily calendars more
       accessible within the Office of the Special Representative for Afghanistan and Pakistan,
       and building a schedule of office-wide and smaller meetings to facilitate information
       sharing across the organization.

The “Bureau” That is Not a Bureau

        S/SRAP’s leadership describe the office as being “for all intents and purposes” a bureau.
In many respects, S/SRAP does resemble a traditional, regional bureau. Certainly with respect to
engagement in the policy process, it might be considered a super-bureau. However, there are a
number of important respects in which it does not operate like a typical bureau. Many of these
can be explained by the intense involvement of S/SRAP in preparing the Secretary and other
senior Department staff for frequent high level meetings in Washington and engagements
abroad. Others are explained by thinking of S/SRAP less as a bureau than as an ongoing task
force (typically called together on an urgent basis to respond to a crisis, such as the evacuation of
Americans in response to political violence or a natural disaster).

        All Department bureaus have a principal deputy assistant secretary who serves as the
assistant secretary’s stand- in when necessary; takes on sensitive assignments for the assistant
secretary; and in the regional bureaus is responsible for overall management of the bureau and its
relationships with other parts of the Department, as well as overseas missions in its region. The
S/SRAP senior deputy has taken on some of these functions, including working with the special
Representative to identify and select many senior staff at the missions in Afghanistan and
Pakistan. However, as is true in many parts of the Department when a crisis strikes, the principal
deputy and other senior staff have largely jettisoned management responsibilities.

      One mission official, for instance, indicated that the mission has no advocate in the
S/SRAP front office to engage on management issues needing high- level attention in the
                                           8
                              SENSITIVE BUT UNCLASSIFIED
Department. S/SRAP has no effective orientation program for new staff, including entry- level
personnel. Guidelines and support for interagency and other staff who are new to the Department
are catch-as-catch-can. S/SRAP does not provide for the supervisory and mentoring needs of
special advisors who lack Department (or even U.S. Government) experience. Foreign and Civil
Service evaluations are late, and some are seriously overdue. No one is held to account. S/SRAP
has not evaluated its system of management controls, nor submitted the required annual
management controls statement of assurance. S/SRAP has prepared many planning documents,
but is exempted from the Department’s usual requirement to prepare a Bureau Strategic and
Resource Plan, which is based on Mission Strategic and Resource Plans. Rather, it provides
material that is included in the SCA bureau plan. S/SRAP does not evaluate or provide comment
on the Mission Strategic and Resource Plans from Kabul or Islamabad.

Recommendation 1: The Office of the Special Representative for Afghanistan and Pakistan
should designate a staff member to serve as the point of contact for State Department strategic
planning exercises, including the Mission and Bureau Strategic and Resource Plans. (Action:
S/SRAP)

Recommendation 2: The Office of the Special Representative for Afghanistan and Pakistan
should develop a formal process whereby each mission receives an appropriately cleared review
of its Mission Strategic and Resource Plan, approved by the senior deputy. (Action: S/SRAP)

        When Ambassador Holbrooke was away from Washington, there was no formal
designation of an acting special representative. Staff merely assumed that the senior deputy had
that role, and the deputies themselves indicated there was an informal designation process, but no
system for communicating it across the organization. Department bureaus customarily designate
a deputy to stand in as acting assistant secretary when the assistant secretary is not personally
available.

        Lines of authority to the deputies only began to be specified with the creation of an
S/SRAP organization chart shortly before the inspection began. Many within S/SRAP told
inspectors these lines were largely notional, as deputies acted more as partition (or team) leaders,
even as some special advisors played the same roles. The deputies had deputy titles, but the
flatness of the organization, centralized role played by the Special Representative, and absence
of a chain of command meant that many in S/SRAP had no clear reporting channel or individual
to whom they were accountable.

       The OIG team discussed with the new Special Representative ways in which the
organization could have a clearer chain of command and accountability.

       Informal Recommendation 5: The Office of the Special Representative for Afghanistan
       and Pakistan should designate and announce an acting special representative when the
       Special Representative is away.

       Informal Recommendation 6: The Office of the Special Representative for Afghanistan
       and Pakistan should establish an orientation program for new staff.


                                           9
                              SENSITIVE BUT UNCLASSIFIED
       Informal Recommendation 7: The Office of the Special Representative for Afghanistan
       and Pakistan should establish a mechanism to monitor progress in fulfilling requirements
       for preparation of Civil Service and Foreign Service evaluations and meeting deadlines
       set by the Bureau of Human Resources.

       Informal Recommendation 8: The Office of the Special Representative for Afghanistan
       and Pakistan should clarify the internal reporting chains and responsibilities of the
       deputies.

Transition Issues

        The Department’s history of special representative or special envoy offices is that, in
time, they come to an end. The S/SRAP operation at some point in the next several years may
fully succeed in its mission or possibly transition to a more traditional special envoy office that
does not stand alone from the SCA bureau, or both. At that point, the Afghanistan and Pakistan
desks will revert to SCA, as will potentially other S/SRAP elements. The inspection report for
the SCA bureau prepared concurrently with the inspection of S/SRAP recommends that SCA
begin to plan and prepare for a transition.

        Currently, the senior S/SRAP deputy is also an SCA deputy assistant secretary. His
coordination and deconfliction function is potentially useful, but after he became the acting
special representative in December, senior-level S/SRAP involvement in SCA meetings became
more sporadic and less effective. The flow of communication between SCA and S/SRAP is
inadequate, as is SCA’s awareness of S/SRAP programs and activities in such areas as strategic
communications and regional economic issues. (b) (5)



        When the transition takes place, SCA’s awareness of S/SRAP programs and activities
will be essential for continuity. To meet its responsibilities, SCA – particularly the bureau’s
deputy assistant secretaries and office directors – will need to be aware of and participate in
appropriate S/SRAP meetings and events. Whenever regular bureau and S/SRAP meetings
overlap or conflict, the S/SRAP senior deputy/SCA deputy assistant secretary should work with
SCA to reschedule them to a mutually convenient time. A successful transition will depend on
such coordination. (See related recommendation in the report of the concurrent inspection of
SCA.)

Recommendation 3: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureau of South and Central Asian Affairs, should increase sharing of
information about and expand invitations to the Bureau of South and Central Asian Affairs so
that the bureau participates regularly in programs and activities organized by the Office of the
Special Representative for Afghanistan and Pakistan. (Action: S/SRAP, in coordination with
SCA)




                                          10
                              SENSITIVE BUT UNCLASSIFIED
Entry-Level Personnel

        The general definition of entry- level officers or personnel includes untenured Foreign
Service officers and staff. S/SRAP itself does not have any Foreign Service officers who meet
this definition, although the desks do. Both S/SRAP and the desks include Foreign Service, Civil
Service, and other employees who have been with the Department less than 5 years and can be
considered as newcomers.

        S/SRAP does not have a separate program for entry- level personnel. However, SCA has
invited Afghanistan and Pakistan desk personnel to participate in its activities for entry-level and
other Department newcomers. Eventually, as noted above, the desks will revert to SCA. Thus,
allowing S/SRAP staff to benefit from SCA’s program is sensible. (For further information and a
recommendation, see the concurrent OIG inspection report for the SCA bureau.)

Policy and Program Implementation
Country Directorates Reporting to the Office of the Special Representative for Afghanistan
and Pakistan

        The Afghanistan and Pakistan desks have struggled over the past decade to obtain and
retain the staff needed to meet burgeoning policy requirements. They now are staffed by
employees from a wide variety of personnel systems: Foreign Service, Civil Service, contractors,
interns, 3161 employees, 1 detailees from other agencies, and science or foreign diplomatic
fellows. As a result, many have less experience than their counterparts in comparable
Department offices. This combination of diverse personnel systems, an experience deficit, and
rapid turnover means that office leaders must devote a large percentage of their time to staffing
issues and an equally large percentage to mentoring and training new staff, and editing their
work. Many officers did not receive Washington Tradecraft training or desk- level orientation,
upon arrival.

           Informal Recommendation 9: The Offices of Afghanistan and Pakistan Affairs should
           provide orientation packages to all new arrivals, keep all orientation materials up-to-date,
           and coordinate their orientation program with more general orientations offered at the
           Department or bureau level.

           Informal Recommendation 10: The Office of the Special Representative for
           Afghanistan and Pakistan should require all personnel assigned to policy positions to take
           Washington Tradecraft training at the Foreign Service Institute within 4 months of
           beginning their assignments.

        Due to the blended workforce and an operating style that was often described as “creative
chaos,” some individuals in S/SRAP have been able to carve out special roles for themselves
outside the ordinary supervisory chains. For instance, some employees whose positions appear
on one staffing pattern actually work in another part of S/SRAP, or (in at least two cases) outside


1
    Personnel hired by the head of a temporary organization under 5 U.S.C. 3161 to fill temporary positions, as necessary.
                                                     11
                                         SENSITIVE BUT UNCLASSIFIED
of S/SRAP entirely. The resulting confusion over lines of authority makes it difficult to establish
accountability for performance evaluation and set appropriate staffing levels.

Recommendation 4: The Office of the Special Representative for Afghanistan and Pakistan,
in coordination with the Bureau of South and Central Asian Affairs and the Bureau of Human
Resources, should restructure the staffing pattern of the Office of the Special Representative for
Afghanistan and Pakistan to reflect actual duties and lines of authority. (Action: S/SRAP, in
coordination with SCA and DGHR)

        The work of the desks is driven by preparing policy papers to support S/SRAP. The
volume and tempo are high, with orders for new papers often coming more quickly than they can
be written. Under this pressure, drafting officers assign priority to meeting deadlines, rather than
to doing research or obtaining clearances. Some papers do not meet S/SRAP expectations, while
others are produced but never used. Both desks’ ability to produce papers for top- level meetings
is often hindered by the late arrival of agendas from the National Security Council; in some
cases, the instructions for preparing documents for a meeting of the Deputies Committee have
not reached the office until after the close of business the previous night. In other cases, certain
topics are of such great sensitivity that desk officers are not kept abreast of their status, but they
are nevertheless tasked with drafting papers, which – because the writers are not fully informed
about the issues – cannot be accurate and up-to-date. Effectiveness is also limited by S/SRAP’s
lack of an adequate system for tasking and coordinating such papers. Failure to give drafting
officers sufficient feedback on the changes made to papers by the various levels in S/SRAP also
leads to unnecessary work, as drafters have no way of knowing whether what they are producing
is needed.

       Informal Recommendation 11: The Office of the Special Representative for
       Afghanistan and Pakistan should return a copy of the final version of all papers to the
       drafting office to help clarify expectations and reduce duplicated efforts.

       Informal Recommendation 12: The Office of the Special Representative for
       Afghanistan and Pakistan should assign drafting responsibilities to those responsible for
       the papers’ substance.

        Coordination between S/SRAP officials and the desks also is hindered by the use of
different communications systems. Officers in S/SRAP use the Principal Officers Executive
Management System (POEMS) for email, drafting, and cable retrieval, while officers on the
desks use the SCA network. The lack of a common computer platform hinders efficient
operations and creates obstacles to effective feedback. An effort to bridge the gap by using
SharePoint has not overcome these problems. Some officials in S/SRAP prefer the POEMS
system, because it is maintained by the Executive Secretariat, whose support and maintenance
services are superior to those provided by the Bureau of Information Resource Management
(IRM). However, no regional bureau uses this bifurcated approach to computer networking.
While it would make sense for staff assistants to retain access to the POEMS system, S/SRAP
and the desks could better coordinate their work if S/SRAP migrated to the SCA network.




                                          12
                              SENSITIVE BUT UNCLASSIFIED
Recommendation 5: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureaus of South and Central Asian Affairs and Information Resource
Management and the Executive Secretariat, should migrate all its users to a single domain.
(Action: S/SRAP, in coordination with SCA, IRM, and S/ES)

        The OIG team identified some areas of duplication or redundancy where savings could be
made. For example, SCA and S/SRAP do not need some contract services provided by the Iraq
Policy and Operations Group (IPOG). This office, staffed by contract personne l and working
from a Department annex, was originally set up to support policy officers working on Iraq. In
2009 its contract was amended to add media alerts and cable summarizing services for officers
working on Afghanistan.

       IPOG alerts desk officers by email when an article on Afghanistan or Pakistan appears in
the mainstream U.S. press. Few officers make use of these alerts, however, because they
frequently receive the same alerts from IPOG, Embassy Kabul or Islamabad, the Operations
Center or the bureau's public affairs office.

        Some officers do make use of IPOG's cable summarizing service, but they generally do
not read the summaries even though they are well written. Instead, they use it as an alerting
service when they cannot locate cables quickly enough in overcrowded in-boxes. Despite the
convenience this occasionally represents, the OIG team found that officers could locate needed
cables more efficiently by setting filters on the search and retrieval functions of the State
Messaging and Retrieval Toolbox (SMART) system to individual user profiles. Doing so would
obviate the need for expensive cable alerts from IPOG. At the time the new SMART system was
installed in SCA and S/SRAP, few if any users were trained in how to set search functions to
include a profile.

Recommendation 6: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureaus of South and Central Asian Affairs and Near Eastern Affairs,
should discontinue having the Iraq Policy and Operations Group send it media alerts. (Action:
S/SRAP, in coordination with SCA and NEA)

Recommendation 7: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureaus of South and Central Asian Affairs and Near Eastern Affairs,
should discontinue having the Iraq Policy and Operations Group send it cable alerts and
summaries and instead request the group to assist it in making cable profiles for its staff more
efficient. (Action: S/SRAP, in coordination with SCA and NEA)

Recommendation 8: The Bureau of Information Resource Management, in coordination with
the Office of the Special Representative for Afghanistan and Pakistan, should contact new users
approximately 1 month after establishing their State Messaging and Archive Retrieval Toolbox
inbox profiles, to determine whether those profiles are appropriate and useful; make necessary
adjustments to the profiles; and provide follow-up user guidance. (Action: IRM, in coordination
with S/SRAP)




                                         13
                             SENSITIVE BUT UNCLASSIFIED
Recommendation 9: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
South and Central Asian Affairs and the Office of the Special Representative for Afghanistan
and Pakistan, should assign Iraq Policy and Operations Group analysts to appropriate supervisors
in the Iraq, Afghanistan, and/or Pakistan offices. (Action NEA, in coordination with SCA and
S/SRAP)

        The office management specialists on both desks appear underutilized and have requested
additional and more substantive duties. They must routinely perform escort and reception duties,
and they have little interaction with their counterparts in the S/SRAP front office and do not back
them up. A newly named acting deputy director on the Pakistan desk already has begun to
address these concerns. The OIG team encouraged S/SRAP and the desks to work out areas for
enhanced office management specialist responsibilities and collaboration.

        The policy desks are spending time on issues that should be the responsibility of other
offices. For example, both desks spend significant time obtaining visas for personnel being
assigned or travelling to Afghanistan and Pakistan (and for Dubai, a customary transit point).
Rather than routinely intervening with the Afghan and Pakistani embassies in Washington to
urge them to expedite the issuance of individual visas, the desks should reserve this service for
senior officials and urgent or sensitive cases, and refer most routine visa cases to the Orientation
and In-Processing Center. Monitoring the visa validities of S/SRAP and desk personnel, and
being the clearinghouse for visa applications for those travelers, would be an appropriate duty for
cross-trained office management specialists on the desks.

Office of Afghanistan Affairs

        The Office of Afghanistan Affairs is now a large, one-country office with 25 authorized
positions that reports to S/SRAP but continues to receive administrative and other support from
SCA. In general, it is a smoothly functioning office. The director provides clear guidance,
remaining calm and focused under the pressure of short deadlines. He is supported by two
deputies who concentrate on internal management, to whom he delegates clearance authority as
necessary, in order to keep paper moving and avoid delays. Despite a sense of disconnection
from the previous Special Representative, who rarely visited the desk, morale is high.

        Staffing issues take up much of management’s time. Virtually everyone is more junior
than the staff in comparable Department offices. Because of the need to fill positions by
encouraging nonstandard tours of duty, turnover is high. During the inspection, four officers,
including one of the deputies, transferred or left the Department. To carry out an S/SRAP goal of
building up a cadre of area specialists, the office recruits aggressively for persons with
experience in Afghanistan, both in and outside of government.

       The office is appropriately organized. Four units focus on political, economic,
multifunctional, and political/military issues. Redundancies could be reduced in some areas. The
desk does not require a separate, part-time public affairs position, for example, as this support
can be more effectively provided by SCA’s Office of Press and Public Diplomacy (SCA/PPD).




                                          14
                              SENSITIVE BUT UNCLASSIFIED
           Informal Recommendation 13: The Office of Afghanistan Affairs should redistribute
           office workloads to eliminate public affairs responsibilities and request this support from
           the Office of Public Affairs and Public Diplomacy instead.

        The office has made significant progress in more systematic record-keeping. Many
officers had kept only individual records, which were not passed on to their successors; however,
prior to the inspection the office began putting more information on a shared drive, using Traffic
Analysis by Geography and Subject for faster retrieval, and dividing files by year to make
retirement easier. This effort has reduced waste by avoiding duplication and improved the quality
of papers by increasing continuity.

        The office plays a limited role in overseeing foreign assistance. It is not responsible for
managing programs or evaluating their effectiveness. Instead, it works with Embassy Kabul and
the Office of the Deputy Secretary for Management and Resources to improve coordination of
assistance programs by all agencies and keep them focused on foreign policy goals. On at least
one occasion, officers found a proposed change in a program inconsistent with the justification
given to Congress for its funding and urged Embassy Kabul not to approve it. The OIG team
encouraged the desk to find a replacement for a contractor with specialized expertise in this area
who departed in March for the private sector.

        Until recently, the Office of Afghanistan Affairs (unlike most country desks) was not the
primary channel of communication with “its” embassy. Relations between S/SRAP and Embassy
Kabul have been strained by several issues. In early 2010, the embassy urged Washington to
send it fewer uncoordinated, individual requests and to combine instructions from S/SRAP and
the desk in a more comprehensive manner. Since S/SRAP did not do so, the embassy began
ignoring some messages from S/SRAP entirely. Later that year, the Afghan desk began a daily
exchange of official- informal cables to consolidate the flow of information and limit ad hoc or
contradictory instructions. These cables have become an important tool for organizing work and
have improved coordination between the field and Washington.

        More needs to be done. The OIG inspection of Embassy Kabul in 2010 found that
S/SRAP’s tight control of information created problems for bureaus that needed to see reporting
on their areas of responsibility. 2 That inspection report contained a recommendation that
S/SRAP send the embassy new guidance for reporting that reflected the needs of all Washington
consumers, not just its own. S/SRAP was in the process of complying with that recommendation
when the Kabul inspection report was closed at the start of the Kabul compliance follow- up
review in March 2011.

Recommendation 10: The Office of the Special Representative for Afghanistan and Pakistan
should prepare, clear, and send new instructions for the formulation and distribution of reporting
that includes priorities and the needs of all Washington end users. (Action: S/SRAP)




2
    ISP-I-10-32, Inspection of Embassy Kabul, Afghanistan, February 2010.
                                                15
                                    SENSITIVE BUT UNCLASSIFIED
Office of Pakistan Affairs

       The Pakistan desk has a young, energetic staff that has performed beyond reasonable
expectations. Stretch assignments have placed responsibilities upon inexperienced officers, who
nonetheless have responded well.

       Despite the hard work, long hours, and a perception of neglect from S/SRAP, the office’s
morale is high. Interoffice communication is good, and several informal social events have
helped build a sense of team cohesion. Several staff commented on the family- friendly
atmosphere – making accommodations for childcare needs and encouraging on-time departures
whenever possible. As one officer put it, “We’ve learned to cut through the extraneous stuff,
focus on the essential, and get out of here.”

        The director has established a productive working relationship with S/SRAP leadership,
including spending several weeks as an acting deputy in the S/SRAP front office. While that
meant he had to delegate much of the day-to-day operation of the office to his two deputies, he
was able to maintain an appropriate balance, and his staff speaks highly of him. The deputies, in
turn, have managed the office well, both substantively and administratively.

        Although the present team works well together, it faces two challenges in the months
ahead. The most experienced officers will depart in routine summer turnover, typically creating
gaps of several weeks. The OIG team suggested that desk management enlist the senior S/SRAP
deputy to institute the same overlap rule that applies to service in Iraq, Afghanistan, and
Pakistan. The second challenge lies in the leadership transition in S/SRAP itself: prolonged
ambiguity regarding chains of command and needed improvements in operating procedures
could inadvertently serve as an impetus for other desk personnel to seek opportunities elsewhere.

       Informal Recommendation 14: The Office of the Special Representative for
       Afghanistan and Pakistan should institute the same overlap rule that applies to service in
       Iraq, Afghanistan, and Pakistan for the Pakistan and Afghanistan desks.

       Four subunits, or teams, divide the desk’s workload: political, politico- military,
economic, and multifunctional. Three work well; the economic team, however, has been
undercut by an S/SRAP staff member operating outside a chain of command.

       Informal Recommendation 15: The Office of Pakistan Affairs, in coordination with the
       Office of the Special Representative for Afghanistan and Pakistan, should review
       economic staffing, with a view to either clarifying roles and thus strengthening the team
       or disbanding the subunit.

         Although traditional desk structures often do not have a full- time public diplomacy
officer, the importance of public diplomacy efforts in the bilateral relationship, liaison with both
SCA/PPD and S/SRAP’s communications team, and drafting press guidance keeps the desk’s
public diplomacy officer fully and properly engaged. His management of the office’s three
interns garnered praise from each of them.


                                          16
                              SENSITIVE BUT UNCLASSIFIED
        With over $1 billion in assistance destined for Pakistan each year, an officer overseeing
foreign assistance is desirable. Such an officer, with extensive experience in other foreign
assistance offices and on appropriations committee staff, recently joined the desk after a 6- month
gap. Although not responsible for managing programs or evaluating their effectiveness, she will
play an important role in developing their policy justification and serving as a liaison to the
foreign assistance implementers.

         Three desk staffers have expressed the desire and willingness to study Urdu on their own
time, if the Foreign Service Institute (FSI) were to establish an early morning class in the
Department, but FSI required a larger number of students. Given the importance of Urdu
language skills to U.S. goals in Pakistan and the paucity of such skills in the Department, the
OIG team counseled the S/SRAP senior deputy to support this initiative with FSI management.

Foreign Assistance

        S/SRAP does not directly manage foreign assistance funds. Some officers are involved
in developing broad strategies for the use of money; others are working with bilateral and
multilateral donors to raise funds; and still others are involved in the preparation of the
Congressional Budget Justification, working with the missions and the Office of the Director of
Foreign Assistance. The Special Representative and senior staff work closely with the Bureau of
Legislative Affairs and USAID to provide information to the Congress on the administration’s
budget request.

        The relationship between S/SRAP and USAID has not always been smooth. There has
been a USAID representative within S/SRAP from almost the beginning, but the long lead time
in selecting and approving Washington agency leadership resulted in a vacuum, which S/SRAP
leadership attempted to fill. Since the summer of 2010, the situation has improved, although
concerns remain about the slow expenditure of funds.

        In the past 2 years, S/SRAP has directed a significant reorientation of the assistance effort
in Pakistan. Its staff has worked with the embassy, the enlarged USAID mission, the
Government of Pakistan, and the rest of the donor community. The interagency component of
S/SRAP has facilitated expanding the role of some of those agencies within Pakistan. Much of
this day-to-day policy effort has been overseen closely by one of the S/SRAP deputies. Now that
the new policy direction is in place, the office needs to implement and evaluate it.

        The OIG team could not identify anyone within S/SRAP designated to evaluate the
impact of the overall assistance effort. The majority of metrics created by program implementers
measure program outputs, rather than outcomes. Many of the programs are too new to
demonstrate outcomes, but there does not appear to be a concentrated effort to develop processes
to measure outcomes over the medium- to long-term. Embassies Kabul and Islamabad have
developed systems for monitoring and evaluating projects. S/SRAP already has the advantage of
the expertise of the special advisors and the interagency representatives; it is the logical entity,
with respect to Afghanistan and Pakistan, to evaluate overall sectoral, national, and regional
outcomes. Designating a staff member to handle this responsibility would enable S/SRAP to
implement the Under Secretary for Management’s October 20, 2010, policy requiring regular
evaluations.
                                          17
                              SENSITIVE BUT UNCLASSIFIED
       Informal Recommendation 16: The Office of the Special Representative for
       Afghanistan and Pakistan should formally designate one of the deputies as being
       responsible for overall evaluation of the foreign assistance programs in Afghanistan and
       Pakistan.

Recommendation 11: The Office of the Special Representative for Afghanistan and Pakistan
should develop a process to review and consolidate the efforts of the embassies’ monitoring and
evaluation efforts, in order to assess overall sectoral, national, and regional outcomes of
assistance programs. (Action: S/SRAP)

Strategic Communication, Public Affairs, and Public Diplomacy

        A small unit of four people in S/SRAP handles strategic communication, public affairs,
and public diplomacy. They report to the deputy for defense, communications, and
reconciliation. The unit is led by a director for communications, assisted by a deputy director for
public affairs who served in Afghanistan, a deputy director for outreach, and a Presidential
Management Fellow.

        The unit is cohesive, hardworking, creative, and productive. Its primary role is strategic
planning and interagency coordination within its sphere. It has helped draft the Integrated
Civilian-Military Afghanistan Communication Plan and the Pakistan Communications Plan and
its updates. The unit works closely with its Department of Defense strategic communication
counterparts and the Office of the Under Secretary for Public Diplomacy and Public Affairs.
The unit also has a symbiotic relationship with the eight staff members in SCA/PPD, who work
primarily in support of S/SRAP and the U.S. missions in Afghanistan and Pakistan. As detailed
in the separate and concurrent OIG Inspection Report on the Bureau of South and Central Asian
Affairs, five staff members in the SCA/PPD Afghanistan and Pakistan operations support unit
manage the public diplomacy and strategic communications grants that implement the S/SRAP
strategic communication and public diplomacy strategies. SCA/PPD is also home for the press
officer for Afghanistan and Pakistan, as well as desk officers for Afghanistan and Pakistan, each
of whom provides the routine interaction between the embassy public affairs section and
Washington. The desks also have public diplomacy officers of their own.

        This unit in S/SRAP and the two public diplomacy officers from the country desks meet
jointly with the above- identified SCA/PPD staff for separate weekly calls to the public affairs
teams in Embassy Kabul and Embassy Islamabad. Some of these working- level SCA/PPD staff
members also attend the weekly S/SRAP “all hands” meeting. Representatives from the related
SCA/PPD staff also attend weekly strategic communications meetings led by the S/SRAP
communications director, as well as the weekly interagency communications meetings co-
chaired by the director of communication and her Department of Defense counterpart, which are
hosted on a rotating basis by the Department and the Pentagon.

Strategic Communication and Public Diplomacy Strategy

       The Afghanistan and Pakistan strategy follows four pillars: expand media engagement,
counter extremist voices, build communications capacity, and strengthen people-to-people ties.
                                          18
                              SENSITIVE BUT UNCLASSIFIED
To implement that strategy, Embassy Islamabad runs the Department’s largest bilateral exchange
program, and Pakistan has the largest Fulbright program in the world. The public diplomacy
budget for Pakistan grew from a base public diplomacy budget of approximately $1.5 million in
FY 2009 to $58 million in FY 2010 for public diplomacy and strategic communications from
Department and USAID funds, not counting strategic communication funds from the Department
of Defense. Funds limited to public diplomacy that were spent in Pakistan in FY 2010 totaled
$41.4 million (FY 2010 base of $1.6 million; FY 2009 supplemental, 2- year funds of $31.1
million; and FY 2010 supplemental regularization funding of $8.7 million). The FY 2011
budget request is for up to $110 million.

        The public diplomacy budget in Afghanistan grew from a base public diplomacy budget
of $1.5 million in FY 2009 to over $87.5 million in FY 2010 for public diplomacy and strategic
communications from Department and USAID funds, not counting significant strategic
communication funds from the Department of Defense. Funds used only for public diplomacy
that were spent in Afghanistan in FY 2010 totaled $46.7 million (FY 2010 base $1.3 million; FY
2009 supplemental 2- year money $22.1 million; and FY 2010 supplemental regularization $23.3
million).

        These budget increases at Embassies Kabul and Islamabad have been accompanied by a
doubling of the number of public affairs officers at the two missions and by SCA/PPD staffing
up to support grants management. Neither the S/SRAP unit nor SCA/PPD requires further staff
augmentation to manage this increased workload.

Shortage of Language Qualified Press Officers

         The January 27, 2011, arrest in Lahore, Pakistan, of an American official assigned to
Embassy Islamabad drew attention to a public affairs skills gap. Not once during nearly 2 months
that coincided with this inspection did a Pakistan-based American public affairs official engage
the Urdu-speaking media in that local language about this issue. At the 2011 Global Chiefs of
Mission Conference, the final report noted that effective engagement requires talented officers
and “officers who can engage contacts in local languages with fluency.”3 Likewise, the
Quadrennial Diplomacy and Development Review stated the intent to, “Make public diplomacy
a core diplomatic mission by building regional media hubs staffed by skilled communicators to
ensure that we can participate in public debates anywhere and anytime.”4 This is not the case –
or at least not regularly – in either Pakistan or Afghanistan. The result is that other voices,
including those of extremists, go unchallenged by U.S. officials speaking local languages. Public
opinion in Pakistan of Americans and U.S. policy has consistently been at relatively low levels,
but that situation was gradually improving (b) (5)                 until the disruption of the
Lahore incident. The Lahore incident is an aberration, but it illustrates how quickly – after
months of implementing a well-designed strategic communication and public diplomacy strategy
–an event can halt, and even temporarily reverse, progress.




3
    Page 38.
4
    Quadrennial Diplo macy and Development Review, p. viii.
                                                19
                                    SENSITIVE BUT UNCLASSIFIED
            (b) (5)



(b) (5)




        In Afghanistan, which has one of the lowest levels of literacy in the world and where
 people get their information primarily from radio (in rural areas) or television (in urban areas),
 U.S. officials should be able to engage with the broadcast media in Dari and Pashto. An
 analogous situation exists in Pakistan. In an effort to help fill the gap, the S/SRAP deputy


                                           20
                               SENSITIVE BUT UNCLASSIFIED
director for outreach, a detailee from the Department of Defense who is an Urdu speaker,
sometimes calls media contacts in Pakistan, to engage with them in Urdu.

        Other direct-hire American staff at the U.S. missions in Afghanistan and Pakistan have a
degree of competency in the main local languages (Urdu, Pashto, and Dari), but they may not
have the high level of language competency needed to speak extemporaneously in a live
television interview or as part of a round table. They may not be Department employees or part
of the public affairs section or have press attaché skills. According to FSI, fewer than 120 active
career and career-conditional employees can read and speak these hard languages at a
competency level of 3 or greater. (See table below.) A native-speaker proficiency in a foreign
language is measured at or near the 5 competency level. At the time of this inspection, there were
24 Department officers in Afghanistan and Pakistan serving at that highest level of proficiency in
any of the three languages. Dari speakers at the 4 level or higher numbered six, two Pashto
speakers; and 14 Urdu speakers. Four Dari speakers, one Pashto speaker, and five Urdu speakers
spoke those languages at the highest level.

   Language           Foreign Service     Foreign Service      Civil Service       Totals
                      Generalists         Specialists
   Urdu                      35                   12                   1               48
   Pashto                     4                    2                   0                6
   Dari                      58                    5                   0               63
  Source: Foreign Service Institute

Recommendation 12: The Office of the Special Representative for Afghanistan and Pakistan
should develop and implement a plan to recruit detailees or excepted Civil Service employees
and place them in Embassy Kabul and Embassy Islamabad press offices to serve as full-time,
dedicated public spokespersons; these individuals must be U.S. citizens who are proficient in the
local language(s) and have press officer training or experience. (Action: S/SRAP)

Recommendation 13: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureau of Human Resources and the Foreign Service Institute, should
provide career public diplomacy officers with the training they need to communicate proficiently
in the designated local languages, so they can engage with the Afghan and Pakistani local
language media at any time and in any place. (Action: S/SRAP, in coordination with DGHR and
FSI)

Recommendation 14: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureau of International Information Programs, and Embassies Kabul and
Islamabad, should examine the feasibility of developing a speakers bureau of experts who are
proficient in Urdu, Pashto, or Dari, who can be detailed from their regular jobs to assist with
outreach and engagement strategies in Afghanistan and Pakistan. This speakers bureau should
include whole-of-government agencies, as well as American citizens who do not work in
government and who are fluent speakers of Urdu, Pashto, or Dari to participate in public
outreach and other mission-sponsored public diplomacy activities. (Action: S/SRAP, in
coordination with IIP, and Embassies Kabul and Islamabad)


                                             21
                                 SENSITIVE BUT UNCLASSIFIED
Need for Greater Continuity Among Key Public Diplomacy Officers

        The 1-year tour-of-duty policy in Afghanistan and Pakistan has caused a lack of
continuity with contacts and impeded efforts to build personal relationships with members of the
local media. This discontinuity is a challenge for the embassies’ public affairs sections. At times,
the S/SRAP director of communications and the staff have reached out directly by telephone to
set up media events for high- level visiting U.S. officials. During the inspection, such difficulties
occurred when the chairman of the Senate Foreign Relations Committee went to Pakistan to help
resolve the Lahore incident described above. The director of communications’ work for Senator
Kerry’s visit was crucial to orchestrating and designing the media engagement plan in Lahore,
which included a pooled television roundtable and a session with top Pakistani editors and
columnists. The Urdu-speaking deputy director for outreach also got involved by telephone with
the Pakistani media, to ensure successful media opportunities. In a society and in an industry
where personal relationships are all- important, tours of duty longer than 12 months for the press
attaché and public affairs section chief would be desirable, to give them time to build
relationships and foster continuity. Already, Embassies Kabul and Islamabad encourage their
chiefs of section and principal officers to commit to 2-year assignments; expanding this approach
to apply to senior press officers and local language public spokespersons would be consistent
with this already established model. It is worth noting that the officers would be more likely to
make such a commitment if some accommodation were made to permit spouses to accompany
them, at least on a case-by-case basis.

        Informal Recommendation 17: The Office of the Special Representative for
        Afghanistan and Pakistan should encourage candidates for senior press officer and local
        language public spokesperson positions at Embassies Kabul and Islamabad to commit to
        2-year assignments.

Pakistan and Afghanistan Support Office

        The Pakistan and Afghanistan Support Office (PASO) coordinates S/SRAP management
issues with the Executive Secretariat Executive Office and with the Bureau of Near Eastern
Affairs/Bureau of South Central Asian Affairs Executive Office (NEA-SCA/EX). The PASO
director is also responsible for vetting senior- level staff for positions in Afghanistan and Pakistan
and making recommendations to the S/SRAP leadership.

        PASO and the Iraq Strategic Partnership Office are temporary offices created by
executive order to support the Department’s efforts in Iraq, Afghanistan, and Pakistan. PASO’s
main purpose is to enhance civilian control and a stable constitutional government in Pakistan; to
promote a more capable, accountable, and effective government in Afghanistan; and to stimulate
the economies of both countries. The executive order allows PASO and Iraq Strategic
Partnership Office to hire 3161 employees on 1-year appointments, which can be extended for up
to 5 years. The PASO director, who is a 3161 employee, has considerable authority in hiring and
deploying PASO 3161 employees in S/SRAP, SCA, Afghanistan, Pakistan, and the 3161
Personnel Office.




                                          22
                              SENSITIVE BUT UNCLASSIFIED
Excepted Civil Service Hiring

        The 3161 Personnel Office has three sections: recruiting, employment, and personnel,
each led by a senior specialist. All sections do the usual tasks of a traditional, federal personnel
office. However, there is no program to record employee performance management. This issue
is described in the management controls section of the report.

         The 3161 Personnel Office does not have rights and privileges as a fully delegated human
resources organization, and thus its actions are approved elsewhere in the Department. Currently,
this is done by FSI’s human resources office, which also determines salary and authorizes and
classifies positions. The 3161 Personnel Office staff feel that FSI’s human resources office
turnaround time is too long for all its functions, which prevents them from optimizing resources
to meet program goals. These delays also mean that offices in Washington and abroad risk losing
candidates. The OIG team made a recommendation in a concurrent inspection report on SCA,
that SCA, FSI, and HR negotiate a service- level agreement to include customer service standards
(vis-a-vis PASO).




                                          23
                              SENSITIVE BUT UNCLASSIFIED
Resource Management

                           S/SRAP -- U.S. Staff 5
Foreign      Civil      31616 Contractor Detailee              Fellow/       Total
Service     Service                                             Intern
  24          14          11           9             16           11          85

                                                            Afghanistan
           FY 2010 S/SRAP Resources                         & Pakistan
                (in thousands) 7                              Portion

Traditional Overseas Program Funding (D&CP)                       $54,343
Additional Afghanistan and Pakistan Funding                       411,390
(D&CP)
Public Diplomacy (D&CP)                                             3,413
Economic Support Funds                                             59,746
Other Assistance 8                                                    199
International Cooperative Administrative Support                  100,375
Services
Representation                                                         202
Other Appropriations 9                                               1,760

Total 10                                                        $631,428

As shown in Appendix 1 at the end of this report, USAID, Department of Defense, and
Department-controlled foreign assistance funding for Afghanistan and Pakistan totaled nearly
$18 billion in FY 2010.

Executive Office Overview

        S/SRAP receives administrative support from both the Executive Secretariat Executive
Office and the NEA-SCA/EX, as follows:

5
  Staffing numbers provided by EX. Note that S/SRAP does not have overseas staff.
6
  3161 staffing numbers provided by PASO.
7
   Nu mbers provided by NEA -SCA/EX. S/ SRAP provides policy guidance over the Public Diplo macy, Econo mic
Support Funds and Additional Afghanistan and Pakistan Funding while SCA manages the other appropriations.
SRAP staff used $1.8 million of the FY 2010 D&CP funding for travel, $1.5 million for salaries, and an additional
amount (not tracked separately) for 3161s and contract staff.
8
  Assistance to Europe, Eurasia, and Central Asia (Pub. L. 123-123§ 1), Freedo m Support Act (Pub. L. 101-138),
Develop ment Assistance (Foreign Assistance Act of 1961, Pub. L. 87 -195, chapters 1 and 10 o f Part I).
9
  Machine Readable Visas Processing Fees, United States Informat ion and Educational Exchange Act, Sec. 810 Fees
(22 U.S.C. § 1475e), FSN Separat ion Liability Trust Fund (Pub. L. 102-138 § 151), Unconditional Gift Funds (22
U.S.C. § 2697).
10
   About 60 percent of this funding was held and managed domestically.
                                              24
                                  SENSITIVE BUT UNCLASSIFIED
       The Afghanistan and Pakistan desks receive support from NEA-SCA/EX;
       The rest of S/SRAP receives support from the Executive Secretariat Executive Office.
       The S/SRAP senior deputy, who is also a deputy assistant secretary in SCA, receives
       some administrative support from both executive offices.

Although this division of labor sounds awkward, it works well. The Executive Secretariat
Executive Office, which was not part of this inspection, and NEA-SCA/EX have a clear
understanding as to responsibilities, as do the staff of the overall S/SRAP organization. The
Executive Secretariat Executive Office manages S/SRAP’s funding.

Afghanistan-Pakistan Support

        The deputy executive director for SCA is responsible for all missions in South and
Central Asia, but she spends approximately 80 percent of her time on Afghanistan and Pakistan.
The Executive Office (EX) staff dedicated solely to Afghanistan and Pakistan has increased from
3 post management positions in June 2009 to 12 at the time of this inspection, including post
management, budget, and Foreign Service assignments. They began to focus on the transition
from military to civilian staffing in Afghanistan in early 2010, when the staff began meeting
regularly with the EX team involved in the Iraq transition. Acting on one of the lessons learned
from the Iraq transition, in February 2011, EX hired an Afghanistan management transition
coordinator with a background in civilian and military planning. EX plans to augment the
coordinator’s office with additional staff as the transition deadline of 2014 approaches. The
current organizational arrangement works well, due to the efforts of a hard-working and capable
deputy executive director and a talented staff.

        Staffing Afghanistan and, to a lesser extent Pakistan, is a challenge. The Department
began the first of three phases in 2009 in what is termed a “civilian uplift.” This uplift was
intended to increase the number of U.S. Government civilians from all agencies under Embassy
Kabul chief of mission authority from 977 in 2009 to 1,396 in 2011, after which growth was
projected to level off. These numbers are augmented by several hundred temporary duty
employees. The Afghanistan and Pakistan desks and SCA/PPD aggressively recruit to fill these
positions.

         The Department is relying on a blended workforce – a mixture of Foreign Service,
traditional Civil Service, 3161s, contractors, Presidential Management Fellows, interns, and
retired diplomats – to staff both S/SRAP and the missions. Managing this blended workforce is a
challenge. Also, as noted elsewhere, S/SRAP has a number of entry- level officers, many of
whom have little if any previous experience either overseas or in the Department. Faced with a
shortage of mid- level officers and having authority to hire new entry- level officers, the Bureau of
Human Resources has been forced to fill mid- level positions in Washington with officers on their
first or second tours, who require more training and supervision than experienced veterans. Even
this source of stopgap staffing will be lost, if funding cuts force a reduction in the number of new
officers hired.

       While the number of positions continues to increase, the pool of potential Foreign Service
volunteers who have not yet served in Afghanistan, Pakistan, or Iraq continues to shrink.
                                              25
                             SENSITIVE BUT UNCLASSIFIED
Embassies Kabul and Islamabad have requested that the Department consider increasing the
length of tours from 1 year to 18 months or 2 years. While this would improve continuity, many
working with Foreign Service assignments say it would decrease the number of people willing to
volunteer to work in these extremely challenging missions.

        A number of Civil Service employees have expressed interest in serving in Afghanistan
or Pakistan. However, assignment rules allow Civil Service staff to be assigned to Foreign
Service positions only if no Foreign Service officer has bid on the position. This can sometimes
mean that no one fills the job at all, if the Foreign Service bidder subsequently goes elsewhere
after logging the bid. The assignments offices within the bureau and in the Bureau of Human
Resources have worked to mitigate this problem. As the pool of Foreign Service personnel who
have not served in these missions shrinks, it may be necessary to increase the opportunities for
Civil Service employees to fill positions there.

        EX holds weekly teleconferences with Embassies Kabul and Islamabad, as well as
regular and frequent meetings with other Department offices involved in the expansion at these
two missions. The EX staff members work well together. EX also works closely with the
S/SRAP office on staffing and other management issues. In general, this relationship functions
well, with the exception of domestic Civil Service hiring. The Afghanistan desk, for example,
spent months attempting to hire office management assistants and waiting to have other positions
reclassified and advertised. The process has been time consuming and, so far, unsuccessful,
which has weakened the desk’s ability to support S/SRAP. The transition coordinator and the
EX staff involved in Afghanistan and Pakistan continue to meet regularly with the Iraq EX team
as issues or questions arise. They also plan to adapt a specialized software program, used by the
Iraq team to manage staffing and planning, for the Afghanistan transition.

Human Resources Division

Domestic Services

        S/SRAP receives domestic human resources support from the Executive Secretariat
Executive Office and the NEA-SCA/EX. The human resources office in the Executive
Secretariat Executive Office supports most direct-hire positions, and at times, activity is intense.
EX provides support for the Afghanistan and Pakistan desks. As noted above, PASO and the
3161 Personnel Office support temporary employees hired under a program to strengthen
governments in Pakistan and Afghanistan; this office is discussed in an earlier section of this
report.

        The EX human resources provider’s services are problematic. Often the service provider
is unresponsive, and S/SRAP sometimes faces a lengthy hiring process in order to staff the
desks. This topic and a recommendation to restructure domestic human resources services in EX
are found in the concurrent SCA inspection report.




                                          26
                              SENSITIVE BUT UNCLASSIFIED
Foreign Service Assignments

        The Foreign Service assignments process in EX generally works well. Two assignments
officers handle staffing for Afghanistan and Pakistan. Other members of the EX assignments
office also assist as needed.

        Afghanistan, Iraq, and Pakistan are the Department’s number one staffing priority. To
further this goal, the Department now has two assignment seasons: June of each year for
Afghanistan, Pakistan, and Iraq, and early fall for all other positions. This procedure, which
allows the three priority missions to choose their candidates before the regular bidding season
begins, has meant that a large percentage of Afghanistan, Iraq, and Pakistan positions are filled
within a few months. By mid-March 2011, the bureau had filled 92 percent of the summer 2011
Afghanistan positions, 91 percent of the Iraq positions, and 95 percent of the Pakistan positions.

        In an attempt to improve continuity, Embassies Kabul and Islamabad have proposed that
the tours of duty for those countries be increased from 1 year to 18 months or 2 years. Opinions
regarding longer tours were mixed. While this change would provide better continuity than the 1-
year tours, many human resources staff were concerned that this change might reduce the
number of volunteers. Some suggested that front office, section chief, principal officer, and
certain other key positions be changed to 2- year tours, while all other tours remain at 1 year.
Embassies Kabul and Islamabad already encourage section chiefs and principal officers to serve
2 years, and they have enjoyed some success. All three posts (including Iraq) have substantial
service recognition packages, a 15 percent incentive pay bonus for extending for a second year,
and a policy of no-fault curtailment. The Department also recently implemented continuity tours,
in which employees spend 1 year in a mission in Afghanistan, Iraq, or Pakistan and 1 year in a
related position outside of those three countries. (See Strategic Communication, Public Affairs,
and Public Diplomacy section, above, for related discussion and an informal recommendation.)

Post Management Officers

       The post management officers provide management liaison between overseas missions
and Department bureaus and offices. Six post management officers and two assistants provide
support for Afghanistan and Pakistan. In addition to the usual responsibilities, the Pakistan and
Afghanistan post management officers interact with other U.S. Government agencies on
management related matters. Overseas staff generally expressed satisfaction with the service they
provide.

General Services

        General services are provided well overall. S/SRAP receives general services support
from the Executive Secretariat Executive Office and the bureaus’ EX. At times, demands for
travel support from the Executive Secretariat Executive Office are intense and include
coordinating travel using a variety of means, including military aircraft. S/SRAP uses the two
executive offices effectively. There is no need for coordination between them, and no overlap in
services provided.


                                          27
                              SENSITIVE BUT UNCLASSIFIED
Orientation and In-Processing Center

        S/SRAP has a stake in the Orientation and In-Processing Center, which assists all U.S.
Government employees and contractors under chief of mission authority who are deploying to
Afghanistan, Iraq, and Pakistan. The director, deputy director, and program assistant are direct-
hires under 3161 authority. The remaining 11 are contract employees. In addition to handling in-
processing, the center provides off-shore support to reduce the administrative footprint at these
high-threat posts. It performs its mission well.

Information Services Division

        The NEA-SCA/EX technology team provides support only to the Afghanistan and
Pakistan desks. Customers experience frequent system outages and are reluctant to let go of EX’s
dynamic support team, since they are dissatisfied with the IRM Information Technology Service
Center’s slow response. Previous OIG inspection reports have raised issues with regard to IRM’s
service, communication, and technicians’ skills. 11 However, these problems cannot be attributed
solely to the IRM information technology consolidation program; typically, they also involve the
Department’s antiquated infrastructure, which may take years to resolve.

Customer Service and Support

       Employees in S/SRAP frequently stay late at work, only to lose their work to SBU
computer system crashes. The classified network is no different and, in some offices, even
worse. (b) (5)




        At first glance, it may seem easy to blame the Bureau of Diplomatic Security, IRM, the
Office of Facilities Management Services, or EX for system and service deficiencies – but the
true culprit is the Department infrastructure itself. (b) (5)


To compound the problem, office moves, which often occur with little notification to IRM or
EX’s information technology section, affect the equipment, network, and ultimately, the
customers. In some cases, an office renovation can affect employees in nearby offices.

11
 Evaluation of the Information Technology Consolidation Project at the Depart ment of State, Report Nu mber
AUD/IT-10-11, January 2010.
                                              28
                                  SENSITIVE BUT UNCLASSIFIED
Renovation and technical projects are abundant throughout the building, and will take years to
sort out and fix. In order to manage the multitude of issues affecting customers, different
sections of IRM and the Office of Facilities Management Services should meet weekly to sort
through the problems, determine responsibility, and resolve them. Relations are good between
the teams, and with the help of the IRM Liaison Division, they are trying to resolve the many
problems.

Recommendation 15: The Office of the Special Representative for Afghanistan and Pakistan
should direct the Bureau of Near Eastern Affairs/Bureau of South Central Asian Affairs
Executive Office to meet weekly with its Bureau of Information Resource Management and the
Office of Facilities Management Services counterparts to address customers’ issues. (Action:
S/SRAP, in coordination with NEA-SCA/EX, IRM, and A/OPR)

Management Controls
        S/SRAP has not reviewed its system of management controls, as required by 2 FAM
022.7(2), nor has it submitted an annual management controls statement of assurance as required
by 2 FAM 024 d. As a result, the organization does not have added assurance that its operations
are in compliance with Department regulations and free from waste, fraud, and abuse.

Recommendation 16: The Office of the Special Representative for Afghanistan and Pakistan
should evaluate its system of management controls, and the Special Representative for
Afghanistan and Pakistan should submit an annual management controls statement of assurance
for the year ended July 31, 2010. (Action: S/SRAP)

Performance Management

        Timeliness and completion of Civil Service performance evaluations and work
commitments has been a problem for S/SRAP. Some Civil Service employees complained, and
the human resources service provider confirmed, that S/SRAP and desk leaders did not show
enough concern about fulfilling this important function and did not meet reporting requirements
for unreported and late Civil Service performance evaluations (3 FAH-1 H-2825.4).

        Although SCA is responsible for ensuring that the Afghanistan and Pakistan desks
complete required performance evaluations, that bureau is not currently in the Afghanistan and
Pakistan office directors’ chain of command. However, this is an issue throughout S/SRAP. The
performance evaluation function is important for employee morale and for administering an
effective personnel system. The OIG counseled managers regarding this issue.

Recommendation 17: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureau of South and Central Asian Affairs, should submit a delinquent
raters list, identifying both delinquent raters and Civil Service employees whose performance
evaluation reports are late or were not prepared. (Action: S/SRAP, in coordination with SCA)

Recommendation 18: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureau of South and Central Asian Affairs, should institute and enforce a

                                         29
                             SENSITIVE BUT UNCLASSIFIED
policy, with sanctions, that supervisors complete overdue employee evaluations according to the
timetable set by the Bureau of Human Resources. (Action: S/SRAP, in coordination with SCA)

Extensions and Performance Management for Temporary Employees

        S/SRAP uses a number of 3161 employees. The 3161 Personnel Office does not have a
uniform policy for managing requests for extensions of 3161 employees. Not having such a
policy leaves employees uncertain about their eligibility to extend and confuses supervisors who
need to decide whether to support a request for extension. In a concurrent report on the OIG
inspection of SCA, inspectors made a recommendation that SCA publish a policy on extension
requests, which will address this problem.

       The 3161 Personnel Office also does not have an adequate system of performance
management or reference for future employment of these employees. Given that the Department
may need such employees in the future, the 3161 Personnel Office should maintain files on past
3161 hires, to develop a rapid reaction cadre of staff with a proven record of good performance.
Currently, the vetting system is informal, and recommendations for 3161 employees take place
by word of mouth, rather than through a more formal system with adequate documentation. In a
concurrent report on the OIG inspection of SCA, inspectors made a recommendation that SCA
develop a rating system for 3161 employees, which will address this problem.




                                         30
                             SENSITIVE BUT UNCLASSIFIED
   Security Program

           The security program within S/SRAP was at the cusp of change during this OIG
   inspection. The first Special Representative did not emphasize security, but the program is being
   revamped. The new leadership emphasizes the importance of good security practice, and
   working- level officers are changing their attitudes in personal security duties and responsibilities.
   To assist in the transformation, the NEA-SCA security officer, a Bureau of Diplomatic Security
   special agent, is being augmented by one individual from the Bureau of Diplomatic Security
   Programs Applications Division.
(b) (5)




                                             31
                                 SENSITIVE BUT UNCLASSIFIED
List of Recommendations
Recommendation 1: The Office of the Special Representative for Afghanistan and Pakistan
should designate a staff member to serve as the point of contact for State Department strategic
planning exercises, including the Mission and Bureau Strategic and Resource Plans. (Action:
S/SRAP)

Recommendation 2: The Office of the Special Representative for Afghanistan and Pakistan
should develop a formal process whereby each mission receives an appropriately cleared review
of its Mission Strategic and Resource Plan, approved by the senior deputy. (Action: S/SRAP)

Recommendation 3: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureau of South and Central Asian Affairs, should increase sharing of
information about and expand invitations to the Bureau of South and Central Asian Affairs so
that the bureau participates regularly in programs and activities organized by the Office of the
Special Representative for Afghanistan and Pakistan. (Action: S/SRAP, in coordination with
SCA)

Recommendation 4: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureau of South and Central Asian Affairs and the Bureau of Human
Resources, should restructure the staffing pattern of the Office of the Special Representative for
Afghanistan and Pakistan to reflect actual duties and lines of authority. (Action: S/SRAP, in
coordination with SCA and DGHR)

Recommendation 5: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureaus of South and Central Asian Affairs and Information Resource
Management and the Executive Secretariat, should migrate all its users to a single domain.
(Action: S/SRAP, in coordination with SCA, IRM, and S/ES)

Recommendation 6: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureaus of South and Central Asian Affairs and Near Eastern Affairs,
should discontinue having the Iraq Policy and Operations Group send it media alerts. (Action:
S/SRAP, in coordination with SCA and NEA)

Recommendation 7: The Office of the Special Representative for Afghanistan and Pakistan, in
coordination with the Bureaus of South and Central Asian Affairs and Near Eastern Affairs,
should discontinue having the Iraq Policy and Operations Group send it cable alerts and
summaries and instead request the group to assist it in making cable profiles for its staff more
efficient. (Action: S/SRAP, in coordination with SCA and NEA)

Recommendation 8: The Bureau of Information Resource Management, in coordination with
the Office of the Special Representative for Afghanistan and Pakistan, should contact new users
approximately 1 month after establishing their State Messaging and Archive Retrieval Toolbox
inbox profiles, to determine whether those profiles are appropriate and useful; make necessary
adjustments to the profiles; and provide follow-up user guidance. (Action: IRM, in coordination
with S/SRAP)


                                         32
                             SENSITIVE BUT UNCLASSIFIED
Recommendation 9: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
South and Central Asian Affairs and the Office of the Special Representative for Afghanistan
and Pakistan, should assign Iraq Policy and Operations Group analysts to appropriate supervisors
in the Iraq, Afghanistan, and/or Pakistan offices. (Action NEA, in coordination with SCA and
S/SRAP)

Recommendation 10: The Office of the Special Representative for Afghanistan and Pakistan
should prepare, clear, and send new instructions for the formulation and distribution of reporting
that includes priorities and the needs of all Washington end users. (Action: S/SRAP)

Recommendation 11: The Office of the Special Representative for Afghanistan and Pakistan
should develop a process to review and consolidate the efforts of the embassies’ monitoring and
evaluation efforts, in order to assess overall sectoral, national, and regional outcomes of
assistance programs. (Action: S/SRAP)

Recommendation 12: The Office of the Special Representative for Afghanistan and Pakistan
should develop and implement a plan to recruit detailees or excepted Civil Service employees
and place them in Embassy Kabul and Embassy Islamabad press offices to serve as full-time,
dedicated public spokespersons; these individuals must be U.S. citizens who are proficient in the
local language(s) and have press officer training or experience. (Action: S/SRAP)

Recommendation 13: The Office of the Special Representative for Afghanistan and Pakistan,
in coordination with the Bureau of Human Resources and the Foreign Service Institute, should
provide career public diplomacy officers with the training they need to communicate proficiently
in the designated local languages, so they can engage with the Afghan and Pakistani local
language media at any time and in any place. (Action: S/SRAP, in coordination with DGHR and
FSI)

Recommendation 14: The Office of the Special Representative for Afghanistan and Pakistan,
in coordination with the Bureau of International Information Programs, and Embassies Kabul
and Islamabad, should examine the feasibility of developing a speakers bureau of experts who
are proficient in Urdu, Pashto, or Dari, who can be detailed from their regular jobs to assist with
outreach and engagement strategies in Afghanistan and Pakistan. This speakers bureau should
include whole-of-government agencies, as well as American citizens who do not work in
government and who are fluent speakers of Urdu, Pashto, or Dari to participate in public
outreach and other mission-sponsored public diplomacy activities. (Action: S/SRAP, in
coordination with IIP, and Embassies Kabul and Islamabad)

Recommendation 15: The Office of the Special Representative for Afghanistan and Pakistan
should direct the Bureau of Near Eastern Affairs/Bureau of South Central Asian Affairs
Executive Office to meet weekly with its Bureau of Information Resource Management and the
Office of Facilities Management Services counterparts to address customers’ issues. (Action:
S/SRAP, in coordination with NEA-SCA/EX, IRM, and A/OPR)

Recommendation 16: The Office of the Special Representative for Afghanistan and Pakistan
should evaluate its system of management controls, and the Special Representative for
Afghanistan and Pakistan should submit an annual management controls statement of assurance
for the year ended July 31, 2010. (Action: S/SRAP)
                                          33
                              SENSITIVE BUT UNCLASSIFIED
Recommendation 17: The Office of the Special Representative for Afghanistan and Pakistan,
in coordination with the Bureau of South and Central Asian Affairs, should submit a delinquent
raters list, identifying both delinquent raters and Civil Service employees whose performance
evaluation reports are late or were not prepared. (Action: S/SRAP, in coordination with SCA)

Recommendation 18: The Office of the Special Representative for Afghanistan and Pakistan,
in coordination with the Bureau of South and Central Asian Affairs, should institute and enforce
a policy, with sanctions, that supervisors complete overdue employee evaluations according to
the timetable set by the Bureau of Human Resources. (Action: S/SRAP, in coordination with
SCA)




                                         34
                             SENSITIVE BUT UNCLASSIFIED
Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Office of the Special Representative for Afghanistan and
Pakistan should set up a special assistant and staff aide component to manage the flow and
quality of the office’s correspondence.

Informal Recommendation 2: The Office of the Special Representative for Afghanistan and
Pakistan should review its need for the daily presence of interagency representatives who are
currently in the office and reaffirm with their respective agencies the need for the
representatives’ presence going forward.

Informal Recommendation 3: The Office of the Special Representative for Afghanistan and
Pakistan should continue efforts to better integrate the Afghanistan and Pakistan desks into the
activities of the office.

Informal Recommendation 4: The Office of the Special Representative for Afghanistan and
Pakistan should address internal communications issues by establishing clear guidelines on
information sharing, making senior officials’ daily calendars more accessible within the Office
of the Special Representative for Afghanistan and Pakistan, and building a schedule of office-
wide and smaller meetings to facilitate information sharing across the organization.

Informal Recommendation 5: The Office of the Special Representative for Afghanistan and
Pakistan should designate and announce an acting special representative when the Special
Representative is away.

Informal Recommendation 6: The Office of the Special Representative for Afghanistan and
Pakistan should establish an orientation program for new staff.

Informal Recommendation 7: The Office of the Special Representative for Afghanistan and
Pakistan should establish a mechanism to monitor progress in fulfilling requirements for
preparation of Civil Service and Foreign Service evaluations and meeting deadlines set by the
Bureau of Human Resources.

Informal Recommendation 8: The Office of the Special Representative for Afghanistan and
Pakistan should clarify the internal reporting chains and responsibilities of the deputies.

Informal Recommendation 9: The Offices of Afghanistan and Pakistan Affairs should provide
orientation packages to all new arrivals, keep all orientation materials up-to-date, and coordinate
their orientation program with more general orientations offered at the Department or bureau
level.


                                          35
                              SENSITIVE BUT UNCLASSIFIED
Informal Recommendation 10: The Office of the Special Representative for Afghanistan and
Pakistan should require all personnel assigned to policy positions to take Washington Tradecraft
training at the Foreign Service Institute within 4 months of beginning their assignments.

Informal Recommendation 11: The Office of the Special Representative for Afghanistan and
Pakistan should return a copy of the final version of all papers to the drafting office to help
clarify expectations and reduce duplicated efforts.

Informal Recommendation 12: The Office of the Special Representative for Afghanistan and
Pakistan should assign drafting responsibilities to those responsible for the papers’ substance.

Informal Recommendation 13: The Office of Afghanistan Affairs should redistribute office
workloads to eliminate public affairs responsibilities and request this support from the Office of
Public Affairs and Public Diplomacy instead.

Informal Recommendation 14: The Office of the Special Representative for Afghanistan and
Pakistan should institute the same overlap rule that applies to service in Iraq, Afghanistan, and
Pakistan for the Pakistan and Afghanistan desks.

Informal Recommendation 15: The Office of Pakistan Affairs, in coordination with the Office
of the Special Representative for Afghanistan and Pakistan, should review economic staffing,
with a view to either clarifying roles and thus strengthening the team or disbanding the subunit.

Informal Recommendation 16: The Office of the Special Representative for Afghanistan and
Pakistan should formally designate one of the deputies as being responsible for overall
evaluation of the foreign assistance programs in Afghanistan and Pakistan.

Informal Recommendation 17: The Office of the Special Representative for Afghanistan and
Pakistan should encourage candidates for senior press officer and local language public
spokesperson positions at Embassies Kabul and Islamabad to commit to 2-year assignments.




                                          36
                              SENSITIVE BUT UNCLASSIFIED
Principal Officials

                                        Name             Arrival Date

  Executive Office
Special Representative                  Marc Grossman    2/2011
 for Afghanistan and Pakistan
Senior Deputy and                       Frank Ruggiero   7/2010
 Deputy Assistant Secretary
Deputy Special Representative           Dan Feldman      8/2009
 for Afghanistan and Pakistan
Deputy Special Representative           Vikram Singh     5/2009
 for Afghanistan and Pakistan

 Office Directors
NEA-SCA/EX                              Jay Anania       8/2009
SCA/A                                   Jim De Hart      6/2010
SCA/P                                   Tim Lenderking   6/2010




                                       37
                           SENSITIVE BUT UNCLASSIFIED
Acronyms

D&CP         Diplomatic and Consular Programs
EX           Executive Office
FSI          Foreign Service Institute
IRM          Bureau of Information Resource Management
NEA-SCA/EX   Bureau of Near Eastern Affairs/Bureau of South Central Asian
             Affairs Executive Office
PASO         Pakistan and Afghanistan Support Office
POEMS        Principal Officers Executive Management System
S/SRAP       Office of the Special Representative for Afghanistan and Pakistan
SCA          Bureau for South and Central Asian Affairs
SCA/PPD      Office of Press and Public Diplomacy
SCI          Sensitive compartmented information
TSWA         Temporary secure working area
USAID        U.S. Agency for International Development




                         38
             SENSITIVE BUT UNCLASSIFIED
Appendix I: Summary of Foreign Assistance Funding
Allocation

 FY 2010 Departme nt, USAID, and Department of      Afghanistan
Defense Controlled Foreign Assistance Resources for & Pakistan
            Afghanistan and Pakistan
                 (in thousands) 12

Economic Support Funds                                             $4,890,000
International Narcotics Control and Law Enforcement                   790,000
Foreign Military Financing                                            298,000
Global Health and Child Survival                                      122,049
Nonproliferation, Antiterrorism, Demining and Related                  79,905
Programs
Food For Peace Title II                                                 15,500
International Military Education and Training                            6,500

State and USAID Total                                                6,201,954

Department of Defense                                              11,672,800

State, USAID, and Departme nt of Defense Total                    $17,874,754




12
 State and USAID numbers were taken fro m SCA’s FY 2012 Bureau Strategic and Resourc e Plan. Depart ment of
Defense numbers were provided by the Office of the Director of Foreign Assistance.
                                            39
                                SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219


   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.
